 DOE/IG-0564




                              ADVANCED VITRIFICATION SYSTEM

          AUDIT
         REPORT




                                         AUGUST 2002




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                                  U. S. DEPARTMENT OF ENERGY
                                        Washington, DC 20585

                                             August 20, 2002




MEMORANDUM FOR THE SECRETARY

FROM:                      Gregory H. Friedman (Signed)
                           Inspector General

SUBJECT:                   INFORMATION: Audit Report on "Advanced Vitrification System"


BACKGROUND

The Department of Energy (Department) faces an environmental remediation task of unprecedented scope
and technical complexity. Current estimates are that the clean-up effort will eventually cost more than $230
billion and take decades to complete. At your direction, the Department recently completed a comprehensive
evaluation of its remediation effort with a goal of finding a way to reduce associated costs, as well as the time
needed to complete the task. Given the nature of the work, the effort will likely involve many as yet untested
technologies. In this vein, the Assistant Secretary for Environmental Management has established a priority
to identify breakthrough technologies with the potential to dramatically reduce the Department's remediation
mortgage costs.

In a desire to expedite and reduce the cost of clean-up activities, the Radioactive Isolation Consortium, LLC,
a private company, made an unsolicited proposal to the Department in 1998 relating to a technology it called
the Advanced Vitrification System (AVS). According to the proposal, this technology could accelerate the
clean-up schedule at the Department's Hanford site, and save tens of billions of dollars across the complex.
The Department awarded a multi-year contract to Radioactive Isolation Consortium, LLC, and to date, about
$10 million has been expended on or committed to AVS. The Department recently granted an extension of
the contract through January 2003 and is actively considering providing $30 million in additional funding for
technology demonstration and construction of a pilot AVS test facility.

In March 2002, the Office of Inspector General received information that raised concerns about the
effectiveness and usefulness of the AVS technology. Based on these concerns and because of the importance
of vitrification technology to the remediation of high-level waste, we initiated this audit to identify issues that
could prevent successful deployment of the AVS.

RESULTS OF AUDIT

The audit disclosed that there are a number of significant unresolved technical issues affecting the ability to
develop and deploy AVS. We concluded that these challenges should be addressed before the Department
funds additional research on the technology. Evaluations conducted by independent reviewers and by
Department staff over the past five years have raised serious doubts about the viability of AVS and the
likelihood that it will deliver on the benefits promised. One review, for example, concluded that the
Radioactive Isolation Consortium, LLC failed to prove that the AVS process produced a waste form
                                                     -2-


acceptable for storage in a permanent repository. Other studies indicated that potential cost savings were
substantially overstated and that planned reductions in the risk of exposure to workers could not be
substantiated. While one independent study concluded that the AVS process had merit, its authors
identified at least 15 significant uncertainties or technical challenges that would need to be overcome.

Also, the Department had not developed specific performance measures relating to the evaluation and
selection of alternative vitrification technologies. To its credit, the Department planned to initiate a
business plan evaluation of the AVS technology. Hopefully, the review will provide a more definitive
assessment as to the viability of using AVS in the Department's environmental remediation efforts.

We recognize the need to explore new technologies, take responsible risks and, at the same time, apply
taxpayer-provided resources to the most promising alternatives. With these objectives in mind, we believe
that the Department should ensure that all of the significant issues raised in prior studies could be
successfully addressed before deciding to commit additional funds to AVS. To help achieve this goal, the
Department should adopt additional performance measures to allow it to better gauge the progress in the
evaluation and selection of an effective vitrification technology. project as well as take steps to hold its
contractor more accountable for program success.

MANAGEMENT REACTION

Management agreed with the conclusions reached and the appropriateness of the recommendations.
Planned corrective actions include developing an action plan, which will establish an Independent Project
Evaluation Team and a Business Analysis Team. Among other planned actions, the Independent Project
Evaluation Team will conduct a plausibility review of the AVS. Management's comments have been
included in their entirety at Appendix 1.

Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
ADVANCED VITRIFICATION SYSTEM

TABLE OF
CONTENTS



                Overview

                Introduction and Objective .................................................................... 1

                Conclusions and Observations .............................................................. 2


                Research and Development Challenges

                Details of Finding .................................................................................. 3

                Recommendations ................................................................................. 8


                Appendices

                Management Comments ........................................................................ 9

                Evaluations .......................................................................................... 11

                Scope and Methodology ...................................................................... 12

                Related Reports ................................................................................... 13
Overview

INTRODUCTION AND   The Department of Energy (Department) stores a substantial quantity of
OBJECTIVE          high-level radioactive waste, requiring treatment and eventual disposal,
                   at its Hanford Site in Richland, Washington. The Department has
                   adopted a multi-phased approach to treating this waste, and plans to
                   vitrify about 10 percent of it into borosilicate glass through the use of a
                   joule-heated melter in the project's first phase. Remaining site
                   high-level waste will be treated in the subsequent phase, and may not
                   necessarily use the same melter technology. Consequently, the
                   Department is examining other melter technologies that could reduce
                   costs without significantly increasing long-term environmental risks. A
                   Departmental official also indicated that other vitrification technologies
                   are being considered for treating high-level waste at Hanford and other
                   potential locations (Savannah River Site and Idaho National
                   Engineering and Environmental Laboratory).

                   In a 1998 unsolicited proposal to the Department, the Radioactive
                   Isolation Consortium, LLC, a private company, claimed that a
                   technology it was developing would accelerate the Hanford vitrification
                   schedule and save tens of billions of dollars across the complex. The
                   process was known as the Advanced Vitrification System (AVS) and
                   had been under development for some time. In several reviews
                   conducted on AVS, both prior to the proposal and since, Department
                   officials as well as independent reviewers questioned the viability of the
                   technology. Nevertheless, the Department elected to fund the research
                   in AVS technology and awarded a contract to Radioactive Isolation
                   Consortium, LLC. Since 1998, about $10 million has been expended
                   on or committed to the project. The Department recently granted a
                   contract extension through January 2003 and is considering providing
                   $30 million in additional funding for technology demonstration and
                   construction of a pilot AVS test facility. Since inception, the AVS
                   project has generated significant interest from reviewers and observers
                   both internal and external to the Department.

                   The Office of Inspector General (OIG) has undertaken a series of
                   reviews designed to evaluate performance of the Department's
                   environmental management program. Based on this work, we
                   concluded in our Special Report on Management Challenges at the
                   Department of Energy, (DOE/IG-0538, December 2001) that
                   Environmental Standards and Stewardship, including the disposal of
                   high-level waste, is one of the most significant challenges the
                   Department faces. We initiated this audit to identify issues that could
                   prevent successful deployment of the AVS.




Page 1                                                         Introduction and Objective
 CONCLUSIONS AND   The potential development and deployment of AVS faces a number of
 OBSERVATIONS      significant challenges that should be addressed prior to funding
                   additional research. Between December 1996 and July 2001, three
                   independent evaluations initiated by the Department concluded that the
                   AVS process was unlikely to be viable. One of these evaluations also
                   recommended discontinuation of project funding. These reviews and
                   other testing of the AVS process identified problems with producing an
                   acceptable waste form. Reviewers also noted overstated estimates of
                   potential cost savings and overly optimistic predictions regarding
                   reduction of risk to workers. While a fourth independent study
                   performed in 1997 concluded that the process had merit, it identified at
                   least 15 significant uncertainties or technical challenges that would
                   need to be overcome.

                   During the audit, the OIG learned that the Department is planning a
                   business plan evaluation to determine whether AVS has a role in the
                   remediation of high-level waste. We, therefore, recommended that
                   Environmental Management design this review to fully address and, to
                   the extent possible, resolve the challenges and uncertainties raised in
                   previous studies prior to funding additional research on AVS.

                   Management should consider the issues discussed in this report when
                   preparing its yearend assurance memorandum on internal controls.



                                                 _____(Signed)__________
                                                 Office of Inspector General




Page 2                                                   Conclusions and Observations
Research and Development Challenges

Technical and       The AVS technology faces significant technical and management
Management          challenges that could prevent or hinder its development and
Challenges          deployment. The Department has sponsored research of AVS since
                    1998, but the proposed technology has yet to satisfy a number of
                    essential technical requirements. Specifically, independent evaluations
                    (see Appendix 2) have concluded that technical, cost, and programmatic
                    issues may jeopardize the viability of the process.

                                                Technical Issues

                    A key consideration for any vitrification technology is that the end
                    product must meet technical specifications for disposal in a geologic
                    repository. Despite multiple attempts, the AVS contractor could not
                    successfully demonstrate that the waste product met the Department's
                    minimum requirements for chemical composition and stability. While
                    the contractor was permitted to amend its original report of results on
                    two separate occasions, an independent panel of experts convened in
                    2001 was unable to conclude that the vitrified waste produced by the
                    AVS process satisfied waste specifications. The review team
                    specifically noted that it was unable to determine the chemical
                    composition and stability of the vitrified sample at various
                    temperatures, and the contractor was unable to provide additional data
                    that would change the review team's conclusion.

                    Additionally, a number of independent studies conducted between 1996
                    and 2001 concluded that the AVS technology was immature and that
                    many significant technical issues needed to be overcome before the
                    process could be seriously considered as an alternative to current
                    vitrification technology. Specifically:

                    •   A 1996 Department study noted that AVS, if successful, would
                        require a greater number of waste canisters than the current
                        vitrification process. Reviewers noted that the number of canisters
                        would increase two to three times over the current process and
                        would increase the estimated cost of vitrification by about
                        $7.3 billion. The study also noted uncertainties stemming from the
                        immaturity of the technology and the absence of analytical data.

                    •   A 1997 American Society of Mechanical Engineers study indicated
                        that the project was scientifically sound, but that project staff had
                        "…barely begun to investigate and evaluate engineering and
                        implementation issues." The study concluded that the technology
                        would not be available in the near term.


Page 3                                                                    Details of Finding
         •   A 1999 evaluation commissioned by Environmental Management
             and composed of a number of public and private sector experts,
             found that the claimed advantages and benefits of the AVS process
             were "…largely theoretical, unproven, and not substantiated by
             convincing objective evidence." The report also stated that key
             aspects of the proposed AVS system had not yet been tested at the
             bench scale level.

         •   A 2001 report by the Department's Environmental Management
             Tanks Focus Area found that a significant amount of development
             and demonstration work was required in order for the AVS
             technology to be adequately judged, and many significant technical
             issues identified during the review would need to be overcome
             before the technology could be seriously considered.

         The contractor also had not addressed a number of potential
         environmental, safety and health issues. As detailed in the cited 1999
         study, the contractor's hazardous materials processing analysis was
         incomplete and could impact certain aspects of worker protection. For
         example, the contractor inappropriately proposed to use contact
         handling methods for highly radioactive material that could only be
         safely manipulated using remote handling techniques. The study also
         determined that researchers did not adequately address relevant
         environmental protection regulations established by the Environmental
         Protection Agency, Occupational Safety and Health Administration,
         Washington Department of Ecology or Resource Conservation and
         Recovery Act. Further, the panel concluded that AVS did not produce
         a vitrified waste product that met specifications necessary for
         acceptance at a geologic repository.

                                   Projected Savings

         Studies also identified a number of uncertainties relating to AVS
         projected cost savings. For example, AVS researchers claimed that the
         technology would accelerate the Hanford cleanup schedule and save the
         government and taxpayers tens of billions of dollars. Yet, two of the
         cited reviews indicated a substantial likelihood that such savings may
         not be achievable. Reviewers noted that:

         •   Cost estimates did not include key design features or grossly
             underestimated the complexity of the features. The excluded
             components and factors could end up doubling the original capital
             cost estimate;


Page 4                                                       Details of Finding
                      •   The research proposal contained a number of omissions, faulty
                          assumptions and technical and programmatic unknowns that
                          required correction before an objective life cycle cost analysis could
                          be developed;

                      •   Cost data were fragmented, inconsistent, and not summarized in a
                          logical manner;

                      •   Development cost estimates were incomplete and confusing; and,

                      •   Conflicting information on the number of canisters needed for the
                          AVS treatment process dramatically affected projected cost savings.

                      Based on these and other comments, the contractor's assertion that
                      billions of dollars will be saved appeared tenuous.

                                          Programmatic Viability of AVS

                      In July 2001, Environmental Management's Tanks Focus Area Group
                      reviewed a number of vitrification technologies and concluded that
                      AVS was not a practical solution to Hanford's long-term vitrification
                      needs. The Group reviewed at least 14 distinct technologies and
                      compared them to the process then in use at Hanford. The study found
                      that there are currently only two practical options to meet Hanford's
                      long-term needs: (1) improving the currently used ceramic melter and
                      (2) a technology known as the Advanced Cold Crucible melter. The
                      Group categorized AVS as one of the "other melter technologies" and
                      did not consider it to be a serious candidate for handling Hanford's
                      high-level waste. Similarly, previous studies performed in 1996 and
                      1999 found that AVS was not a viable competitor for backup or
                      replacement of the current vitrification technology because of
                      significant uncertainties.


Program Performance   Resolution of the identified challenges associated with AVS will
                      require additional scientific analysis and prompt attention from senior
                      Department managers. We noted certain issues that, if promptly
                      addressed, could help the Department ensure that its approach to
                      vitrification research in general, and AVS technology more specifically,
                      optimizes program performance regarding the treatment of highly
                      radioactive waste.




Page 5                                                                      Details of Finding
                     The Department had not developed specific performance measures
                     related to the evaluation and selection of an alternative vitrification
                     technology. While a measure related to the production of high-level
                     waste canisters used for vitrification at the Savannah River Site was in
                     place, it was not sufficient to permit measurement of progress in the
                     effort to develop an alternative vitrification technology. As we noted in
                     our recent report on Environmental Management Performance
                     Measures, (DOE/IG-0561, June 2002), corporate performance measures
                     for the environmental program were insufficiently detailed and covered
                     only about 32 percent of overall program investment. Specific
                     measures in this area may have focused senior management's attention
                     on the problems and uncertainties associated with the AVS project.

                     We also learned that the Office of Environmental Management plans to
                     initiate a business plan evaluation that would determine whether AVS
                     has a role as an alternative/backup technology for Hanford high-level
                     waste. The study is scheduled to begin in the summer of 2002 and is
                     expected to last several months. It is to be coordinated by the Richland
                     Operations Office, and will involve participation by both independent
                     experts and Departmental officials. In our judgment, the new study
                     offers an appropriate vehicle for the Department to address concerns
                     raised in previous reviews. A successful outcome of this study would
                     be a definitive determination by the Department as to the likelihood that
                     AVS can overcome the challenges it faces and ultimately become a
                     viable technological advancement.


Funding Resolution   As of June 2002, the Department had committed about $10 million on
                     AVS, and Environmental Management was considering whether to
                     devote another $30 million to the project over a period of 30 months.
                     The additional money would fund a pilot facility intended to
                     demonstrate the ability of AVS to vitrify high-level waste consistent
                     with the Department's waste acceptance criteria.

                     The President's Management Agenda for Fiscal Year 2002 notes that
                     science and technology are critically important to keeping our nation's
                     economy competitive and for addressing challenges we face in, among
                     other areas, environmental restoration. The Agenda specifies, however,
                     that every Federal research and development dollar must be invested as
                     effectively as possible and that the Government needs to measure




Page 6                                                                    Details of Finding
         whether its research investments are effective. It was noted that the
         Government can rarely show what its investments have produced and
         that information about performance is not linked to decisions about
         funding.

         The Office of Inspector General recognizes the importance of
         Environmental Management's efforts to address its most serious waste
         cleanup challenges faster and less expensively. However, we believe
         that the unresolved technical issues identified over the last five years
         must be addressed and, to the extent possible, resolved before the
         Department provides additional funding for the technology
         demonstration and construction of an AVS test facility.




Page 7                                                         Details of Finding
RECOMMENDATIONS    We recommend that the Assistant Secretary for Environmental
                   Management:

                   1. Delay funding decisions on AVS until major uncertainties have
                      been addressed;

                   2. Develop specific, focused performance measures to more fully
                      gauge progress in the evaluation and selection of an alternative or
                      advanced vitrification technology; and,

                   3. Address all technical, programmatic, and financial challenges and
                      uncertainties identified in previous studies during the upcoming
                      business plan evaluation.


MANAGEMENT         Management agreed with the conclusions reached and the
REACTION           appropriateness of the recommendations. Management's comments
                   have been included in Appendix 4.


AUDITOR COMMENTS   Management's comments and proposed corrective actions are
                   responsive to our recommendations.




Page 8                                                                Recommendations
Appendix 1




Page 9       Management Comments
Appendix 1 (continued)




Page 10                  Management Comments
Appendix 2


                                         EVALUATIONS


•   December 1996 – Independent Assessment of an Alternative Process for Tank Waste Remediation
    using Small In-Tank Processing and Small Modular In-Can Vitrification.

•   July 1997 – Consensus Report of the Review Panel for Small Modular In-Can Vitrification and Small
    In-Tank Processing Modules.

•   November 1999 –Department of Energy Report of Overall Evaluation and Gate 3 Review of
    Radioactive Isolation Consortium, LLC, Advanced Virtrification System.

•   July 2001 – TANKS FOCUS AREA High-Level Waste Melter Review Report.

•   July 11, 2001, August 8, 2001, and December 19, 2001 – Independent Evaluation of the Results of
    Additional Tests of the Advanced Vitrification System.




Page 11                                                                                    Evaluations
Appendix 3

SCOPE         The audit was conducted from April 2002, through June 2002, at
              Department of Energy Headquarters and at the National Energy
              Technology Laboratory (NETL) in Pittsburgh, PA and
              Morgantown, WV. We focused our review on actions taken and
              planned by Department officials, not the contractor.


METHODOLOGY   To accomplish the audit objective we:

                   • Reviewed specific contract requirements for the Radioactive
                     Isolation Consortium, LLC, AVS project;

                   • Reviewed various reports, studies, and/or evaluations related to
                     AVS technology to determine the technical, financial, and
                     programmatic concerns of this technology;

                   • Held discussions with Department Headquarters and NETL
                     officials to obtain the status of the AVS project and understand
                     the technical workings of the AVS technology;

                   • Held discussions with Department Headquarters and NETL
                     officials to obtain their opinions on the viability/maturity of
                     AVS and how it compares to other viable technologies;

                   • Reviewed applicable Department guidance for evaluating and
                     managing environmental technologies;

                   • Reviewed an independent evaluation of the Department's Waste
                     Acceptance Product Specifications; and,

                   • Determined if the Department established performance
                     measures related to the evaluation and selection of alternative
                     vitrification technologies.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed. Also, we did not rely on computer-
              processed data to accomplish our audit objective.

              We held an exit conference with Environmental Management officials
              on August 1, 2002.

Page 12                                                     Scope and Methodology
Appendix 4

                                     RELATED REPORTS


  OFFICE OF INSPECTOR GENERAL REPORT

     • Idaho Operations Office Planned Construction of a Waste Vitrification Facility, (DOE/IG-0549,
       April 2002). The Department had not adequately considered potentially less costly alternatives to
       constructing the vitrification facility, including several proposed by the National Research
       Council.


   GENERAL ACCOUNTING OFFICE REPORTS

     • Department of Energy's Hanford Tank Waste Project---Schedule, Cost, and Management Issues,
       (GAO/RCED-99-13, October 1998). The General Accounting Office (GAO) concluded that
       remediating Hanford's radioactive tank waste will be difficult and very costly. In addition, given
       the nature of the tank waste and the challenges associated with converting it to a more stable form
       for long-term storage, the project involves substantial risk of encountering problems that could
       result in further increases in schedule and cost.

     • Further Actions Needed to Increase the Use of Innovative Cleanup Technologies,
       (GAO/RCED98-249, September 1998). GAO noted that after congressional hearings in
       May 1997, the Office of Environmental Management initiated changes in its organization and
       processes to increase the deployment of innovative technologies.




Page 13                                                                                 Related Reports
                                                                              IG Report No.: DOE/IG-0564

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
